Case: 20-2133

Document: 31

Page: 1

Filed: 02/11/2021

NOTE: This disposition is nonprecedential.

®ntteb States! Court of Appeals;
for tfje Jfetieral Circuit
JOANNA E. HARTY,
Petitioner
v.
OFFICE OF PERSONNEL MANAGEMENT,
Respondent

2020-2133

Petition for review of the Merit Systems Protection
Board in No. NY-844E-20-0153-I-1.

Decided: February 11, 2021

Joanna E. Harty, Ridge, NY, pro se.
DELISA Sanchez, Commercial Litigation Branch, Civil
Division, United States Department of Justice, Washing­
ton, DC, for respondent. Also represented by JEFFREY B.
Clark, Reginald Thomas Blades, Jr., Robert Edward

Kirschman, Jr.
Before LOURIE, CHEN, and HUGHES, Circuit Judges.

Case: 20-2133

Document: 31

Page: 2

2

Filed: 02/11/2021

HARTY v. OPM

Per Curiam.
Ms. Joanna Harty appeals from a decision of the Merit
Systems Protection Board (Board) upholding the Office of
Personnel Management (OPM) decision denying her appli­
Because
cation for disability retirement benefits.
Ms. Harty alleges only factual error in the Board’s decision,
for which we are without jurisdiction to review, we dismiss
this appeal.
Background
Ms. Harty served as a mail clerk at the Internal Reve­
nue Service (IRS) for a number of years before her removal
on April 1, 2019. App’x at 2.1 Ms. Harty alleges that dur­
ing her performance of the duties of her job on August 22,
2018, she injured her back while lifting a heavy “bucket of
work.” Id. at 3. Following her removal, Ms. Harty sought
disability retirement benefits from the IRS, submitting
various doctors’ notes as supporting evidence, including
one from three days after the alleged injury occurred (Au­
gust 25, 2018), and a report from an MRI taken on May 23,
2019. Id. at 2-3.
OPM denied Ms. Harty’s claim for benefits on Novem­
ber 1, 2019. App’x at 20. OPM determined that Ms. Harty
did “not meet the criteria for federal disability entitlement
and [is] not disabled within the meaning of the retirement
law.” Id. In reaching this determination, OPM reasoned
that “the medical evidence does not support [that
Ms. Harty’s] medical condition is incompatible with either
useful or efficient service or retention in the position of rec­
ord.” Id. Ms. Harty sought reconsideration of this decision
and OPM again denied Ms. Harty’s claim. See App’x at 23.

1
Citations to App’x refer to the appendix submitted
with the government’s brief.

Case: 20-2133

Document: 31

Page: 3

Filed: 02/11/2021

3

HARTY v. OPM

Ms. Harty appealed the OPM denial to the Board,
which likewise concluded that she had not met her burden
of demonstrating her entitlement to disability retirement
benefits. App’x at 4. The Board credited Ms. Harty’s testi­
mony and evidence that she “remains in severe pain” after
injuring her back “lifting] a heavy bucket of work.” Id. at
4-5 (citing Ms. Harty’s testimony). Nonetheless, the Board
concluded the entirety of the record evidence “does not sup­
port a finding that her injury constituted a disability under
the law . . . .” Id. at 5. The Board explained that the evi­
dence before it, while demonstrating injury, did not demon­
strate disability. See id. at 5-6. Moreover, the Board
declined to credit the MRI, in part because the record “con­
tains no medical evidence linking the MRI results to her
claimed trauma.” Id. at 6. Ms. Harty appeals this denial
decision to our court.

Discussion
On appeal, Ms. Harty asks the court to reconsider her
claim for disability retirement benefits, including both the
decision that she did not meet the standard to show that
her injury constituted disability under the law and the
Board’s refusal to credit her MRI. See Petitioner’s Br. at
5-6.
This court’s review of a claimant’s entitlement to disa­
bility retirement benefits is very limited. We cannot review
the factual underpinnings of a disability determination.
See Lindahl v. Off ofPers. Mgmt., 470 U.S. 768, 791 (1985)
(citing 5 U.S.C. § 8347(c)). Under § 8347(c), factual “ques­
tions of disability and dependency” are “final and conclu­
sive and are not subject to review.” Whether substantial
evidence supports the Board’s disability determination is
not a challenge within this court’s jurisdiction. Baker u.
Off ofPers. Mgmt., 782 F.2d 993, 994 (Fed. Cir. 1986). We
have jurisdiction to determine only “whether there has
been a substantial departure from important procedural
rights, a misconstruction of the governing legislation, or

Case: 20-2133

Document: 31

Page:4

Filed: 02/11/2021

HARTY v. OPM

4

some like error going to the heart of the administrative de­
termination.” Lindahl, 470 U.S. at 791 (citation and inter­
nal quotation marks omitted).
Ms. Harty asks this court to reconsider the evidence
she presented to the Board and to overturn the Board’s de­
termination. This sort of re-weighing of evidence is pre­
cluded by § 8347(c), and thus, this court is without
jurisdiction to review her fact-based challenge. See id.
Likewise, we cannot review Ms. Harty’s contention that
the MRI evidence should be afforded more weight than the
Board gave it. Such a determination falls squarely within
the statute’s mandate that OPM is to determine all “ques­
tions of disability and dependency.” § 8347(c). The record
leaves little doubt that Ms. Harty suffers from back pain,
but we lack the authority to consider her challenge to
OPM’s and the Board’s fact findings that the submitted ev­
idence did not demonstrate that “her injury constituted a
disability under the law.” App’x at 5.
Conclusion
Because Ms. Harty’s appeal raises only issues that are
beyond this court’s jurisdiction, the case is dismissed.
DISMISSED
Costs
No costs.

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
NEW YORK FIELD OFFICE

JOANNA E. HARTY,
Appellant,

DOCKET NUMBER
NY-844E-20-0153-1-1

v.

OFFICE OF PERSONNEL
MANAGEMENT,
Agency.

DATE: July 16, 2020

Joanna E. Harty. Ridge, New York, pro se.
Shawna Hopkins, Washington, D.C., for the agency.
BEFORE
Nicole DeCrescenzo .
Administrative Judge
INITIAL DECISION
On May 11, 2020, the appellant filed an appeal with the Merit Systems
Protection Board (Board) from an Office of Personnel Management (OPM)
decision that denied her application for disability retirement benefits. Appeal File
(AF), Tab 1. On July 7, 2020, I held the appellant’s requested hearing, and closed
the record. AF, Tab 10. For the reasons discussed below, OPM’s reconsideration
decision is AFFIRMED.

Appxl

2

Background and Summary of Record Evidence
The following facts are not disputed in this record.
Before she stopped working, the appellant worked as a clerk for the
Internal Revenue Service, GS-0305-04. AF, Tab 5 at 50. The record reflects that
the IRS removed her effective April 1, 2019 for misconduct, specifically,
“claiming government benefits you were not entitled to.” AF, Tab 5 at 27. The
IRS stated elsewhere in the record that the appellant’s removal had to do with
conduct involving “the state. ” \ Id. at 8.
The record contains a handwritten note from the appellant stating that on
August 22, 2018, she injured her back when she “lifted a heavy bucket of work.”
AF, Tab 5 at 62. At hearing, she clarified the bucket contained paper clerical
work, and was not particularly heavy. Hearing Recording, Appellant’s Testimony.
She testified at hearing that she experienced severe pain at that moment of lifting
the bucket, and stopped work. Id. She explained she filed a workers compensation
claim, which was denied. Id. She stated that after the denial, she attempted to
work on one day, but stopped after a few hours, because everything caused her
excruciating pain. Her hearing testimony was consistent with her statement in
support of her disability retirement: constant, agonizing, sharp, shooting pain. ld.\
AF, Tab 5 at 34.
The IRS’ statement on accommodation stated that agency concluded the
medical documentation appellant filed prior to her removal “does not document a
disabling medical condition.” AF, Tab 5 at 39.
The record reflects the appellant went to an urgent care on August 25,
2018, three days after her injury. AF, Tab 5 at 8. The urgent care doctor wrote a
note excusing her from work for three days. See id. The record reflects she visited
1 The record does not contain the removal documents. The appellant did not
address her removal at hearing. Hearing CD.

Appx2

r

3

the same doctor on August 31, 2018. Id. at 9. He referred her to an orthopedist
and cleared her to return to work on September 17, 2018. Id. The record reflects
the appellant filed at least one more medical excuse to the IRS, extending her
leave. Id.
OPM’s initial decision also considered a document dated September 25,
2018. Id. OPM noted the.letter was not printed on medical letterhead and that
substantive words in the document were altered in pen. Id. The letter, signed by
Dr. Kyle Keane, stated the appellant had back pain and was not cleared to return
to work, with no explanation. Id. at 10. The letter stated the appellant was
“otherwise without acute symptoms and denies any other joint pains, numbness,
weakness, paresthesia, or any other related or unrelated injury or trauma.” Id.
The appellant filed additional documentation with her request for
reconsideration. See AF, Tab 4 at 6. A March 3, 2018 X-ray of the appellant’s
thoracic spine showed “degenerative changes of thoracic spine, and one of her
lumbar spine showed "scoliosis and degenerative changes.” See id.
The September 25, 2018 documentation from Dr. Keane documented the
appellant’s subjective report of severe pain since her claimed injury, the
appellant’s subjective report that prescribed muscle relaxers provided temporary
relief, and that during an exam, the appellant raised her left leg easily and her
right leg did not raise at all. Id.
There is no indication in the record that the appellant sought treatment for
her injury after September 2018.
After her removal from federal employment, the appellant had an MRI on
May 23, 2019. See id. The summary of her MRI showed “moderate”
“degenerative changes” of her lumbar spine, and “moderate narrowing of spinal
canal L4-L5.” Id.
The OPM issued an initial decision denying the appellant’s application on
November 1, 2018. AF, Tab 5 at 2019. OPM found the appellant’s medical
condition does not constitute a disability under the applicable law. Id.

Appx3

4
The appellant requested reconsideration. AF, Tab 4 at 10. The OPM issued
its final decision on March 25, 2020. Id. at 5. This appeal followed.

Applicable Law and Findings
The appellant bears the burden to prove her entitlement to benefits by
preponderant evidence. Johnson v. Office of Personnel Management, 87 M.S.P.R.
192, fl3 (2000). To be eligible for a disability retirement annuity under FERS,
she must establish that: (1) She has completed 18 months of creditable service in
a position under FERS; (2) while employed in a position subject to FERS, she
became disabled because of a medical condition, resulting in a deficiency in
performance, conduct, or attendance, or

if there is no such actual service

deficiency, the disabling condition is incompatible with either useful and efficient
service or retention in the position; (3) the condition is expected to continue for
at least one year; and (4) the employing agency is unable to accommodate the
condition

in

the

position

held

or

in

an

existing

vacant

position.

5 U.S.C. §8337 (a); 5 C.F.R. §831.1203 (a); Kardatzke v. Office of Personnel
Management, 92 M.S.P.R. 74, ^ 5 (2002). Here, there is no dispute that the
appellant satisfied the first of these elements. However, for the reasons discussed
below, 1 find the appellant did not meet her burden of proof with respect to the
remaining elements.

The appellant failed to proffer preponderant evidence that she became disabled
as a result of her claimed injury.
At hearing, I observed that the appellant’s ability to express herself clearly
is limited. Hearing CD. Nonetheless, the record reflects that the appellant’s
subjective experience of her injury has been consistent throughout the record.
Further, OPM introduced no contradictory evidence. I, therefore, find that on
August 22, 2018, the appellant hurt her back when she “lifted a heavy bucket of

Appx4

5
work.” She experienced pain that she described as “excruciating.” I find that
later, she attempted to perform her assigned duties, but stopped after a few hours,
because everything caused her intolerable pain. I credit her undisputed testimony
that she remains in severe pain. Hearing CD.
However, while the appellant’s testimony of her experience is clear, the
remainder of the record does not support a finding that her injury constituted a
disability under the law, and for the reasons discussed below, I cannot find the
appellant’s subjective reporting of her symptoms constitutes preponderant
evidence of disability. Carter v. Office of Personnel Management, 64 M.S.P.R.
619, 625 (1994)(objective medical evidence and subjective medical evidence are
among

several factors to be considered). Here, while the record supports a

finding that the appellant subjectively experiences severe pain, there is less than
preponderant evidence that she suffered a disabling traumatic injury at work.
As discussed above, neither the IRS nor the OPM considered the
appellant’s medical notes holding her out of work for limited periods of time to
be documentation of an injury severe enough to rise to the level of a disability
under the law. Further, the appellant explained in her hearing testimony, the
Department of Labor denied her request for workers compensation benefits for
this injury. 1 find this is evidence that the DOL did not deem her injury to be
severe enough to warrant benefits. While this evidence is not dispositive of the
issues before me, I find it weighs against the appellant’s burden.
Moreover, as discussed above, the objective evidence does not suggest a
disability: The appellant first sought medical treatment three days after the
reported injury. I find this is inconsistent with instantaneously debilitating
trauma. When she did seek treatment, her doctor’s initial note reflects his
expectation that she would need to rest for three days. I find this evidence weighs
against the appellant’s burden.
In addition, the x-ray readings filed by the appellant note only
“degenerative changes” and “scoliosis.” I find scoliosis is a genetic condition,

Appx5

6
and the record does not link the appellant’s scoliosis to her claimed traumatic
injury. I find degenerative spine changes are consistent with aging, and the record
does not link the degenerative changes to the appellant’s claimed injury. I find
these records do not support the appellant’s burden of proof.
The September 25, 2018

Keane note, disregarding its handwritten

alterations, relied largely on the appellant’s subjective report of severe pain since
her claimed injury, and the appellant’s subjective report that prescribed muscle
relaxers provided temporary relief. Kean noted that during an exam, the appellant
raised her left leg easily and her right leg did not raise at all. Id. 1 find such an
exam is less than objective medical evidence. I find the Kean note reflects that
the appellant’s only asserted symptom- pain- can be relieved with medication.
Further, the note did not identify any medical limitations to the appellant’s
performance of her assigned clerical duties. I find this record does not support the
appellant’s burden of proof.
Moreover, the record reflects the Kean visit is the last medical treatment
the appellant sought while employed at the IRS. This contributes to my finding
that there is less than preponderant evidence of a disabling condition that lasted
more than one year. See Kardcitzke at f 5.
Lastly, OPM noted that the appellant’s MR! should not be considered
because it was read after her removal from the federal service. I credit the OPM’s
argument that the post hoc MRI cannot support a finding that the appellant
became disabled while employed under FERS. See id. The MRI summary showed
the appellant’s spinal conditions as of March 2019 to be, in all respects,
“moderate.” This contributes to a finding that there is less than preponderant
evidence of a disabling condition. In addition, the record contains no medical
evidence linking the MRI results to her claimed trauma, and I find they are not.
In summary, for all the reasons above, I find less than preponderant record
evidence supports a finding that the appellant’s August 2018 injury was disabling
under the law. Accordingly, OPM’s reconsideration decision must be affirmed.

Appx6

7
DECISION
The agency’s reconsideration decision is AFFIRMED.

FOR THE BOARD:

/S/
Nicole DeCrescenzo
Administrative Judge
NOTICE TO APPELLANT

This initial decision will become final on August 20, 2020, unless a
petition for review is filed by that date. This is an important date because it is
usually the last day on which you can file a petition for review with the Board.
However, if you prove that you received this initial decision more than 5 days
after the date of issuance, you may file a petition for review within 30 days after
the date you actually receive the initial decision. If you are represented, the 30day period begins to run upon either your receipt of the initial decision or its
receipt by your representative, whichever comes first.

You must establish the

date on which you or your representative received it. The date on which the initial
decision becomes final also controls when you can file a petition for review with
one of the authorities discussed in the “Notice of Appeal Rights” section, below.
The paragraphs that follow tell you how and when to file with the Board or one of
those authorities. These instructions are important because if you wish to file a
petition, you must file it within the proper time period.
BOARD REVIEW
You may request Board review of this initial decision by filing a petition
for review.
If the other party has already filed a timely petition for review, you may
file a cross petition for review. Your petition or cross petition for review must
state your objections to the initial decision, supported by references to applicable
laws, regulations, and the record. You must file it with:

Appx7

8
The Clerk of the Board
Merit Systems Protection Board
1615 M Street, NW.
Washington, DC 20419
A petition or cross petition for review may be filed by mail, facsimile (fax),
personal or commercial delivery, or electronic filing.

A petition submitted by

electronic filing must comply with the requirements of 5 C.F.R. § 1201.14, and
may

only

be

accomplished

at

the

Board's

e-Appeal

website

(https://e-appeal.mspb.gov).

NOTICE OF LACK OF QUORUM
The Merit Systems Protection Board ordinarily is composed of three
members, 5 U.S.C. § 1201, but currently there are no members in place. Because a
majority vote of the Board is required to decide a case, see 5 C.F.R. § 1200.3(a),
(e), the Board is unable to issue decisions on petitions for review filed with it at
this time. See 5 U.S.C. § 1203. Thus, while parties may continue to file petitions
for review during this period, no decisions will be issued until at least two
members are appointed by the President and confirmed by the Senate. The lack of
a quorum does not serve to extend the time limit for filing a petition or cross
petition. Any party who files such a petition must comply with the time limits
specified herein.
For alternative review options, please consult the section below titled
“Notice of Appeal Rights,” which sets forth other review options.
Criteria for Granting a Petition or Cross Petition for Review
Pursuant to 5 C.F.R. § 1201.115, the Board normally will consider only
issues raised in a timely filed petition or cross petition for review. Situations in
which the Board may grant a petition or cross petition for review include, but are
not limited to, a showing that:
(a) The initial decision contains erroneous findings of material fact. (1)
Any alleged factual error must be material, meaning of sufficient weight to

Appx8

9
warrant an outcome different from that of the initial decision. (2) A petitioner
who alleges that the judge made erroneous findings of material fact must explain
why the challenged factual determination is incorrect and identify specific
evidence in the record that demonstrates the error. In reviewing a claim of an
erroneous finding of fact, the Board will give deference to an administrative
judge’s credibility determinations when they are based, explicitly or implicitly,
on the observation of the demeanor of witnesses testifying at a hearing.
(b) The initial decision is based on an erroneous interpretation of statute or
regulation or the erroneous application of the law to the facts of the case. The
petitioner must explain how the error affected the outcome of the case.
(c) The judge’s rulings during either the course of the appeal or the initial
decision were not consistent with required procedures or involved an abuse of
discretion, and the resulting error affected the outcome of the case.
(d) New and material evidence or legal argument is available that, despite
the petitioner’s due diligence, was not available when the record closed. To
constitute new evidence, the information contained in the documents, not just the
documents themselves, must have been unavailable despite due diligence when
the record closed.
As stated in 5 C.F.R. § 1201.114(h), a petition for review, a cross petition
for review, or a response to a petition for review, whether computer generated,
typed, or handwritten, is limited to 30 pages or 7500 words, whichever is less. A
reply to a response to a petition for review is limited to 15 pages or 3750 words,
whichever is less. Computer generated and typed pleadings must use no less than
12 point typeface and 1-inch margins and must be double spaced and only use one
side of a page. The length limitation is exclusive of any table of contents, table of
authorities, attachments, and certificate of service. A request for leave to file a
pleading that exceeds the limitations prescribed in this paragraph must be
received by the Clerk of the Board at least 3 days before the filing deadline. Such
requests must give the reasons for a waiver as well as the desired length of the
Appx9

10
pleading and are granted only in exceptional circumstances. The page and word
limits set forth above are maximum limits. Parties are not expected or required to
submit pleadings of the maximum length. Typically, a well-written petition for
review is between 5 and 10 pages long.
If you file a petition or cross petition for review, the Board will obtain the
record in your case from the administrative judge and you should not submit
anything to the Board that is already part of the record.

A petition for review

must be filed with the Clerk of the Board no later than the date this initial
decision becomes final, or if this initial decision is received by you or your
representative more than 5 days after the date of issuance, 30 days after the date
you or your representative actually received the initial decision, whichever was
first. If you claim that you and your representative both received this decision
more than 5 days after its issuance, you have the burden to prove to the Board the
earlier date of receipt. You must also show that any delay in receiving the initial
decision was not due to the deliberate evasion of receipt. You may meet your
burden by filing evidence and argument, sworn or under penalty of perjury (see 5
C.F.R. Part 1201, Appendix 4) to support your claim. The date of filing by mail
is determined by the postmark date. The date of filing by fax or by electronic
filing is the date of submission.

The date of filing by personal delivery is the

date on which the Board receives the document. The date of filing by commercial
delivery is the date the document was delivered to the commercial delivery
service. Your petition may be rejected and returned to you if you fail to provide
a statement of how you served your petition on the other party.
§ 1201.4(j).

See 5 C.F.R.

If the petition is filed electronically, the online process itself will

serve the petition on other e-filers. See 5 C.F.R. § 1201.14(j)(l).
A cross petition for review must be filed within 25 days after the date of
service of the petition for review.

Appx10

11
NOTICE TO AGENCY/INTERVENOR
The agency or intervenor may file a petition for review of this initial
decision in accordance with the Board's regulations.
NOTICE OF APPEAL RIGHTS
You may obtain review of this initial decision only after it becomes final,
as explained in the “Notice to Appellant” section above. 5 U.S.C. § 7703(a)(1).
By statute, the nature of your claims determines the time limit for seeking such
review and the appropriate forum with which to file.

5 U.S.C. § 7703(b).

Although we offer the following summary of available appeal rights, the Merit
Systems Protection Board does not provide legal advice on which option is most
appropriate for your situation and the rights described below do not represent a
statement of how courts will rule regarding which cases fall within their
jurisdiction. If you wish to seek review of this decision when it becomes final,
you should immediately review the law applicable to your claims and carefully
follow all filing time limits and requirements,

Failure to file within the

applicable time limit may result in the dismissal of your case by your
chosen forum.
Please read carefully each of the three main possible choices of review
below to decide which one applies to your particular case. If you have questions
about whether a particular forum is the appropriate one to review your case, you
should contact that forum for more information.
(1) Judicial review in general.

As a general rule, an appellant seeking

judicial review of a final Board order must file a petition for review with the U.S.
Court of Appeals for the Federal Circuit, which must be received by the court
within 60 calendar days of the date this decision becomes final.
§ 7703(b)(1)(A).

Appxl1

5 U.S.C.

12
If you submit a petition for review to the U.S. Court of Appeals for the
Federal

Circuit,

you

must

submit

your

petition

to

the

court

at

the

following address:
U.S. Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439
Additional information about the U.S. Court of Appeals for the Federal
Circuit is available at the court’s website, www.cafc.uscourts.gov. Of particular
relevance is the court’s “Guide for Pro Se Petitioners and Appellants,” which is
contained within the court’s Rules of Practice, and Forms 5, 6, 10, and 11.
If you are interested in securing pro bono representation for an appeal to
the U.S. Court of Appeals for the Federal Circuit, you may visit our website at
http://www.mspb.gov/probono for information regarding pro bono representation
for Merit Systems Protection Board appellants before the Federal Circuit.

The

Board neither endorses the services provided by any attorney nor warrants that
any attorney will accept representation in a given case.
(2) Judicial
discrimination.

or

EEOC

review

of

cases

involving

a

claim

of

This option applies to you only if you have claimed that you

were affected by an action that is appealable to the Board and that such action
was based, in whole or in part, on unlawful discrimination. If so, you may obtain
judicial review of this decision—including a disposition of your discrimination
claims—by filing a civil action with an appropriate U.S. district court (not the
U.S. Court of Appeals for the Federal Circuit), within 30 calendar days after this
decision becomes final under the rules set out in the Notice to Appellant section,
above.

5 U.S.C. § 7703(b)(2); .see Perry v. Merit Systems Protection Board,

582 U.S. ____ , 137 S. Ct. 1975 (2017). If the action involves a claim of
discrimination based on race, color, religion, sex, national origin, or a disabling
condition, you may be entitled to representation by a court-appointed lawyer and

Appx12

13
to waiver of any requirement of prepayment of fees, costs, or other security. See
42 U.S.C. § 2000e-5(f) and 29 U.S.C. § 794a.
Contact information for U.S. district courts can be found at their respective
websites, which can be accessed through the link below:
http://www.uscourts.gov/Court Locator/Court Websites, aspx.
Alternatively,

you may request review by the Equal Employment

Opportunity Commission (EEOC) of your discrimination claims only, excluding
all other issues. 5 U.S.C. § 7702(b)(1). You must file any such request with the
EEOC’s Office of Federal Operations within 30 calendar days after this decision
becomes final as explained above. 5 U.S.C. § 7702(b)(1).
If you submit a request for review to the EEOC by regular U.S. mail, the
address of the EEOC is:
Office of Federal Operations
Equal Employment Opportunity Commission
P.O. Box 77960
Washington, D.C. 20013
If you submit a request for review to the EEOC via commercial delivery or
by a method requiring a signature, it must be addressed to:
Office of Federal Operations
Equal Employment Opportunity Commission
131 M Street, N.E.
Suite 5SW12G
Washington, D.C. 20507
(3) Judicial

review

pursuant

to

the

Whistleblower

Protection

Enhancement Act of 2012. This option applies to you only if you have raised
claims of reprisal for whistleblowing disclosures under 5 U.S.C. § 2302(b)(8) or
other protected activities listed in 5 U.S.C. § 2302(b)(9)(A)(i), (B), (C), or (D).
If so, and your judicial petition for review “raises no challenge to the Board's
disposition of allegations of a prohibited personnel practice described in section
2302(b) other than practices described in section 2302(b)(8) or 2302(b)(9)(A)(i),
(B), (C), or (D),” then you may file a petition for judicial review with the U.S.

Appx13

14
Court of Appeals for the Federal Circuit or any court of appeals of competent
jurisdiction. The court of appeals must receive your petition for review within
60 days of the date this decision becomes final under the rules set out in the
Notice to Appellant section, above. 5 U.S.C. § 7703(b)(1)(B).
If you submit a petition for judicial review to the U.S. Court of Appeals for
the Federal Circuit, you must submit your petition to the court at the
following address:
U.S. Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439
Additional information about the U.S. Court of Appeals for the Federal
Circuit is available at the court’s website, www.cafc.uscourts.gov. Of particular
relevance is the court’s “Guide for Pro Se Petitioners and Appellants,” which is
contained within the court’s Rules of Practice, and Forms 5, 6, 10, and 11.
If you are interested in securing pro bono representation for an appeal to
the U.S. Court of Appeals for the Federal Circuit, you may visit our website at
http://www.mspb.gov/probono for information regarding pro bono representation
for Merit Systems Protection Board appellants before the Federal Circuit.

The

Board neither endorses the services provided by any attorney nor warrants that
any attorney will accept representation in a given case.
Contact information for the courts of appeals can be found at their
respective websites, which can be accessed through the link below:
http://www.uscourts.gov/Court Locator/CourtWebsites.aspx

Appx14

